                                                   NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

11   Case Number: A06030008
                                                                         11      Page 1of 1


         We received an allegation of plagiarism regarding a proposal submitted to NSF by a
         PI and two co-P1s.t During our Inquiry, the PI admitted to copying material fiom
         multiple sources, including a proposal he had been asked to review by NSF. Thus,
         we eliminated the two co-PIS as subjects and referred the allegation to the PI'S
         university for investigation. The university concluded the PI was responsible for
         the copied material in his proposal, and concluded the PI plagiarized.

         We agreed with the university that the PI plagiarized and further concluded he
         violated the confidentiality of NSFs merit review process. We recommended NSF:
         (1) make a finding of research misconduct against him; (2) debar the PI for 1 year;
         (3) prohibit the PI &om reviewing NSF proposals for 5 years; and (4) certify for 3
         years after the debarment that everything submitted by the subject to NSF is his
         original work or properly cited. We typically recommend the subject complete an
         ethics course. In this instance, we did not because the PI proactively took an ethics
         course himself, required his students to take the course, and volunteered to his
         university to teach a similar course. NSF took the recommended actions, but
         prohibited the PI from reviewing for 3 years.




         Nadir Jalili (the subject) as the PI.
                                  \
                                      NATIONAL SCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230




        OFFICE OF THE
       DEPUTY DIRECTOR




    VIA CERTIFIED MAIL - RETURN RECEIPT REOUESTED

    Dr. Nader Jalili




            Re: Debarment

    Dear Dr. Jalili:

    On August 22,2008, the National Science Foundation ('WSF") sent you a Notice of Proposed
    Debarment in which NSF proposed to debar you fiom directly or indirectly obtaining the benefits
    of Federal grants for a period of one year. The Notice sets forth in detail the circumstances giving
    rise to NSF's decision to propose your debarment. Specifically, NSF indicated in the Notice that
    the proposed debarment is based upon your submission of a proposal to NSF that contained text
    plagiarized from multiple sources, including an NSF proposal. In that Notice, NSF provided you
I



    with thirty days to respond to the proposed debarment.

    On September 9, 2008, you filed a response. In this response, you indicated that you hlly
    understood the charges against you, and that you '('agreed with the proposed punishments as set in
    the letter." Notwithstanding your agreement with the proposed debarment action, you requested
    that the debarment period expire in May 2009 due to your "full cooperation throughout this
    investigation, and [your] proactive role in raising awareness and educating [the] university
    community about the responsible conduct of research."

    Although I agree that these factors are mitigating in nature, as noted in the Notice of Proposed
    Debarment, I considered these factors in determining that a one-year debarment period would be
    appropriate. I am not persuaded that reducing the debarment period to any duration less than one
    year is appropriate given the misconduct in which you admit you engaged.
Accordingly, you are debarred until August 22,2009. Debarment precludes you fiom receiving
Federal financial and non-financial assistance and benefits under non-procurement Federal
programs and activities unless an agency head or authorized designee makes a determination to
grant an exception in accordance with 2 CFR Section 180.1 35. Non-procurement transactions
include grants, cooperative agreements, scholarships, fellowships, contracts of assistance, loans,
loan guarantees, subsidies, insurance, payments for specified use, and donation agreements.

In addition, you are prohibited fiom receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
debarment. 2 CFR Section 180.170. During the debarment period, you may not have supervisory
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executive Branch of the Federal
Government.

If you have any questions regarding the foregoing, please contact
         National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.




                                                      Sincerely,



                                                      Kathie L. Olsen
                                                      Deputy Director
                                  NATIONALSCIENCE FOUNDATION
                                      4201 .WILSONBOULEVARD
                                     ARLINGTON, VIRGINIA.22230




                                          AUG 2 8 2008
     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL -RETURN RECEIPT REQUESTED

Dr. Nader Jalili




        Re: Notice of proposed ~ebarmentand Notice of Research Misconduct Determination
                                                                                                   ' '




                   .       .

Dear Dr. Jalili:
                                                                                                   .     .


In 2005, the
       . .. .
              University
               .  =.   ,
                         submitted a proposal to NSF entitled,    .   ..




                              ,, for which you were identified as the Principal Investigator. As
dockented in the attached investigative report prepared by NSFYsOffice of Inspector General
("OIG"), this document contained plagiarized text.

-Inlight of your misconduct, this letter serves as formal notice that the National Science
Foundation ("NSF") is proposing to debar you from directly or indirectly obtaining the benefits.
of Federal grants for a period of one year. During your period of debarment, you will be
precluded fiom receiving Federal financial and non-financial assistance and benefits under non-
procurrnent Federal programs and activities. In addition,'you will be prohibited fiom receiving
any Federal contracts or approved subcontracts.under the Federal Acquisition Regulations
("FAR"). Lastly, during .your debarment period, you will be barred from having supervisory
responsibility, primary management, substantive control over, or critical influence on; a grant,
contract, or cooperative agreement with any agency of the Executive ~ranch.of      the Federal
Government.

In additionto proposing your debarment, I 'inprohibiting you-fromserving as an NSF reviewer,
advisor, or consultant until August 15,2011. Furthennore, for three years after the period of
debarment expires, I am requiring you to submit certifications that any proposals or reports-
submitted to NSF do not contain plagiarized, falsified, or fabricated material.
    I
                                                                                                     Page 2
I       Research Misconduct and Sanctions other than Debarment
I
        Under NSF7sregulations, "research misconduct" is defined as "fabrication, falsification, or
        plagiarism in proposing or performing research funded by NSF . .." 45 CFR 689.1(a). NSF
        defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
        without giving appropriate credit." 45 CFR 689.1(a)(3). A finding of research misconduct
        requires that:

                (1) There be a significant departure fiom accepted practices of the relevant research
                    community; and         ,




                (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
                    and
                (3) The allegation be proven by a preponderance of evidence.

        45 CFR 689.2(c).

        Your 2005 proposal contained verbatim text fkom another source document. By submitting a
        proposal to NSF that copies the ideas or words of another without adequate attribution, as
        described in the OIG investigative report, you misrepresented someone else's work as your own.
        In addition, you failed to properly acknowledge or credit the authors of the source document in
        your proposal. Even worse, the source document from which you plagiarized was a proposal
        that you were asked to peer review. Your conduct unquestionably constitutes plagiarism. I
        therefore conclude that your actions meet the applicable definition of "research misconduct" set
        forth in NSF's regulations.

        Pursuant to NSF's regulations, the Foundation must also determine whether to make afinding of
        misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the
        Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
        plagiarism was committed intentionally and constituted a significant departure from accepted
        practices of the relevant research community. I am,therefore, issuing a finding of research
        misconduct against you.

        NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be taken in
        response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
        of reprimand; conditioning awards on prior approval of particular activities fkom NSF; requiring
        that an institution or individual obtain special prior approval of particular activities from NSF;
        and requiringthat an institutional representative certify as to the accuracy of reports or
        certifications of compliance with particular requirements. 45 CFR 689.3(a)(l). Group I1 actions
        include award suspension or restrictions on designated activities or expenditures; requiring
        special reviews of requests for funding; and requiring correction to the research record. 45 CFR
        689.3(a)(2). Group I11 actions include suspension or termination of awards; prohibitions on
        participation as NSF reviewers, advisors or consultants; and debarment or suspension from
        participation in NSF programs. 45 CFR 689.3(a)(3).
                                                                                              Page 3
In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was committed knowingly; the fact
that the source document was a proposal you were asked to peer review; the fact that you
cooperated fully with the investigation; and the fact that you were proactive in taking steps to
educate your university community about the responsible conduct of research. I have also
considered other relevant circumstances. 45 CFR 689.3(b).

I, therefore, take the following actions:

        For three years fiom the end of your debarment period, you are required to submit
        certifications to NSF's OIG that any proposals or reports you submit to NSF do not
        contain plagiarized, falsified, or fabricated material.

        From the date of this letter through August 15,2011, you are prohibited from serving as
        an NSF reviewer, advisor, or consultant.
                                                                                          I
Debarment                                                           ..

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

       (b)     Violation of the tenns of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (I)     A willful failure to perform in accordance with the terms of one or more
                       public agreements or transactions; or


               (3)    A willful violation of a statutory or regulatory'provision or requirement
               applicable to a public agreement or transaction

In any debarment action,-the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you knowingly plagiarized data in
a grant proposal submitted to the Foundation. Thus, your action supports a cause for debarment
under 2 CFR 180.800(b).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well .isthe relevant aggravating
I                                                                                             Page 4
    'and mitigating factors set forth in 2 CFR 180.860, we are proposing debarment fora period of
     one year.

    Appeal Procedures for find in^ of Research Misconduct and Procedures Governing
    Proposed Debarment

    Appeal Procedures for Finding of Research Misconduct
    Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
    finding, in writing, to the Director of the Foundation. 45 CFR 689.1O(a). Any appeal should be
    addressed to the Director at the National Science Foundation, 420 1 Wilson Boulevard,
    Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
    decision on the finding of research misconduct will become final. For your information, we are
    attaching a copy of the applicable regulations.

    Procedures Governing Proposed Debarment.
    The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
    decision-making. Under our regulations, you have 30 days after receipt of this notice t o submit,
    in person or in writing, or through a representative, information and argument in opposition to
    this debarment.. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
    consideration and may lead to a revision of the recommended disposition. If NSF doemot
    receive a response to this notice within the 30-day period, this debarment will become final.

    Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
    Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
    Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
    on non-procurement debarment and FAR Subpart 9.4.

    Should-you have any questions about the foregoing, please contact
            at (703) 292-     .


                                                         Sincerely,



                                                         Kathie L. Olsen
                                                         Deputy Director

    Enclosures:
    Investigative Report
    Nonprocurement Debarment Regulations
    FAR Regulations
    45 CFR Part 689
      National Science
         Foundation
 Office of Inspector General




               Confidential
           Investigation Report
         Case Number A06030008
                         11April 2008

disclosed outside NSF only


                                        NSF OIG Form 22b (11106)
                               Executive Summary         .
Allegation:     Plagiarism.
OIG Inquiry: A proposal submitted to NSF by a PI and two co-PIS contained text
                copied from multiple sources, including a n NSF proposal, without
                appropriate citation. Our Inquiry eliminated the co-PIS a s subjects.
                We referred the allegation to the PI'S home institution.
University Investigation
and Action: The PI admitted he was guilty of plagiarism and violating the
              confidentiality of NSF's merit review. The University concluded he
              was, in addition, guilty of intellectual theft. I t reprimanded the PI.
OIG
Assessment: We accept the PI'S admission t h a t he plagiarized and conclude he
                did so purposefully.      We agree. with the University the P I
                committed intellectual theft and concluded he also violated the
                confidentiality of NSF's merit review process.
                The Act: The P I plagiarized approximately 97 lines of text
                verbatim from a n NSF proposal he was asked to review. We
                conclude the P I plagiarized (text and ideas) a n d violated NSF's
                merit review process. He also copied approximately 39 lines of text
                verbatim from other sources.
                Intent: Given the PI'S familiarity with and access to the source
                proposal, his use of large blocks of verbatim text from t h a t proposal,
                and his knowledge of the confidentiality of proposals, we conclude
                the P I acted purposefully.
                Standard of Proof: We used a preponderance of the evidence a s
                our standard of proof.
                Significant Departure: We conclude the PI'S plagiarism and
                violation of NSF's review process represents a significant departure
                from community standards.
                Pattern: None
OIG
Recommends: Send the P I a letter of reprimand informing him NSF is making a
                finding of research misconduct;
                Debar the PI for 1year;
                Require certifications for 3 years after the debarment;
                Prohibit the P I from reviewing NSF proposals for 5 years;




                                                                                    Pg. 1
                                        OIG Inquiry
      During the merit review of a n NSF proposa1,l a reviewer alleged the proposal
contained plagiarized text. The proposal (the proposal) listed a PI (the Subject2)
and two co-PIS (co-PI A3 and co-PI B4). We initiated a n inquiry and identified
approximately 97 lines of text copied verbatim from a confidential NSF proposal
(the source proposal)5 the Subject reviewed the previous year. This copied material
occurred throughout his proposal, appearing in sections C . l . l "Background on
Assembly a t the Micro/Nanoscale," C.1.2 "Manipulation a t the MicroINanoscale,"
C. 1.3 "Proposed Teleoperated Manipulation," C.5.2 "Planning and Control
Algorithms," and C.5.3 MicroINanogripper Designs." The copied text represented
the bulk of text in these sections. We also identified a n additional 39 lines of text
copied verbatim from 3 sources available through the internet. This copied text is
nearly all of section C. 1"Introduction and Problem Statement."
     A Program Manager told u s this proposal was ranked highly by the review
panel and would be funded. We quickly arranged a n interview with the Subject to
discuss the allegation. During our interview with the Subject, we initially showed
him a proposal with only the copied text in section C.l highlighted, and asked him
to explain it. He said one of his students wrote a background report t h a t the
subject incorporated into the proposal. The Subject recognized text from one
paragraph a s text he copied, specifically the "chopsticks" material in the first
paragraph.6 He concluded he copied the first paragraph a n d his student provided
the last paragraph, and he was not sure about the other two paragraphs. We asked
if there was other copied text in the proposal, and the Subject volunteered there
was, and indicated copied text in several sections. When asked about the source of
the copied text, the Subject said it was from a proposal he received from NSF with a
request for merit review.
     We asked the Subject if he understood the confidentiality of NSF's merit
review process, and the Subject said he did, and he had not shown the source
proposal to anyone. The subject said copying from the source proposal was a
mistake and clarified t h a t by "mistake," he meant something he should not have
done, not something he did accidentally.
      The subject reiterated his explanations in a n affidavit.7 He thought he did not
utilize any research ideas from the source proposal. He affirmed he knew he was
not supposed to copy text from proposals he reviewed and he took full responsibility.
He indicated he would voluntarily withdraw the proposal.

      (redacted). The proposal and its alleged source documents are Tab (A).
   2  Dr. Nadir J a l h is a faculty member a t (redacted).
    3 (redacted) is a faculty member a t (redacted).
    4 (redacted) is a faculty member a t (redacted).
    5 (redacted). This proposal was submitted by (redacted) and lists a PI and four co-PIS. This
proposal was declined.
    6 Tab (A), p. 1.
    7 See Tab (B).



                                                                                           Pg. 2
             Shortly after our interview of the Subject, we received a n email from him
        confirming he had withdrawn the p;-oposal. We reviewed three of the Subject's
        other proposals for plagiarism. Two contained nothing substantive, but the third,
        a n NIRI proposal (the equipment proposal),g contained approximately 28 lines of
        text and 1 figure copied from a manufacturer's brochure. The equipment proposal
I
        identified the company and model number of the equipment sought and included
I
        the brochure in the "Supplementary Documents" section, but does not reference i t or
I       indicate in the proposal t h a t the text is copied verbatim from the brochure. When
1       we asked the Subject about this text, he said he had permission from the
I       manufacturer to use it, and when he first used the manufacturer's material (the
    ,   figure), he directed the reader to the supplemental material, which is the
        manufacturer's brochure from which he took the material.
             We concluded the subject's admission of copying text from the source proposal
        he was sent to review and the additional copied text warranted further
        investigation. We referred the matter to the University for investigation.
                                    T h e Universitv's A c t i o n s
             Per its policy, the 'university referred the matter to i t faculty Senate.
        However, the Senate concluded i t did need to conduct a n investigation since the
        Subject admitted he copied the alleged materials. The Vice President (VP)9
        compiled the facts we had provided and presented them to the Provost10 for
        adjudication.11 The VP divided the allegations into three parts: (1) copying in the
        proposal from internet sources (blue highlighted material i n Tab (A)); (2) copying i n
        the proposal from the source proposal (yellow highlighted material i n Tab (A)); a n d
        (3) copying in the equipment proposal from the manufacturer's brochure.
             Regarding (1) and (2), the university's Provost accepted the Subject's
        admission of guilt and concluded he was "guilty of both "plagiarism" and
        "misappropriation of others7 ideas."l2 The University concluded the copying in (3)
        "should have been more explicitly referenced," but also concluded a reasonable
        reader would know the author "was using vender-supplied material."l3 The
        University originally concluded the Subject's level of intent with regard to (1) was
        unknowing, and his level of intent was knowing with regard to (2). Subsequently
        (see below), the University concluded the Subject's intent with respect to (1) was
        negligent and his intent with respect to (2) was reckless. The adjudicator accepted
        the VP's recommendation to put a letter of reprimand in the Subject's personnel file.




           8  (redacted). The subject is listed as the PI, with four co-PIS, all from the University.
           9  (redacted) is the Vice President for Research and Economic Development.
           10 (redacted) is the Provost and Vice President for Research and Economic Development.
           l1 The University's report is Tab (C).
           l 2 Tab (C), p. 7.
           13 Ibid.,p. 6.


                                                                                                        Pg. 3
                                     OIG's Assessment
     After a significant delay, we received the University's investigation report.
Unfortunately, many of the University's conclusions were prefaced with ambiguous
qualifiers. Overall, we found the University's report incomplete in assessing the
available evidence, and it did not clearly address several factors we outlined in our
referral letter. We informed the University we could not rely on its report and we
began our own investigation. I n response to our letter the University reviewed its
investigative effort and revised its report. The University's revised report clarified
its investigative actions, and its conclusions, including new conclusions about the
Subject's intent.14
     Regarding the 39 lines of copied text in the Introductory section copied from
internet sources, the Subject said some was from his student, but also said he
copied some of the text.15 The Subject took full responsibility for the approximately
97 lines of text copied from the source proposal. The Subject understood the
confidentiality of the merit review process, and said he knew he was not supposed
to copy from a proposal he was sent to review.
     While the Subject acknowledges his copying from the source proposal, he
described the copied material a s "mostly background information and kind of review
of the state-of-the-art that led F i m ] to use them for the purpose of getting the
literature survey and introductory information." However, the copying took place in
nearly every section of the proposal; therefore, we concluded it could not all be
described a s background material and review of existing literature. Additionally,
the PI of the source proposal was asked to review the Subject's proposal, and
commented, "[mlost of this material h a s taken F i m ] 4 years to develop based on
work done under NIST [ I contract . . . and not all of it was published in journals or
conferences. While reviewing this proposal, I felt t h a t I was reviewing my own."l6
     Regarding the text copied in the equipment proposal, we agree with the
University the text should have been more explicitly referenced to the
manufacturer's brochure, but, given the nature of the proposal and the reference to
the brochure, we concluded this copying, by itself, does not represent a significant
departure from accepted practices.
                                      THEACT
     The Subject's proposal contained approximately 136 lines of text copied
verbatim from several sources. The Subject admitted copying approximately 97
lines of text from a confidential proposal he was sent to review by NSF. Because
the Subject copied the text from a proposal he was sent to review, he also violated

   l4  The revised report is Tab (D).
   15  The University did not include in its original report any analysis of how much of the copied
text was from the student and how much was from the Subject. I n its revised report, the University
concluded the material in (1) was copied by the student and provided to the Subject, w h c h
contradicts the Subject's own statement i n his affidavit (and is not supported by any evidence of
which we are aware).
    16 The PI'S evaluation of copied text is Tab (E).




                                                                                              Pg. 4
the confidentiality of NSF's merit review process. He copied some, but took
responsibility for all, of the approximately 39 lines of text copied from 3 internet
sources. By copying the source proposal text verbatim, the Subject also copied the
ideas t h a t text described, thus also committing intellectual theft. This is supported
by the source PI'S statement t h a t he spent considerable time developing these ideas,
some of which were not even published. Thus, we conclude a preponderance of the
evidence supports the conclusion the Subject committed plagiarism by incorporating
others' ideas and text into his proposal.
                                             INTENT
     We disagree with the University's initial conclusion t h a t the Subject's copying
of the material from the internet sources was unknowing, which the University did
not explain. We also disagree with the University's revised conclusion t h a t the
Subject's copying of this material was careless because the student copied it and
provided it to him.17 We note it ignores the Subject's own admission t h a t he copied
some of t h a t material (at least the first paragraph) on his own. Therefore, the
Subject's admission leads u s to conclude he acted intentionally when he copied
material from internet sources.
     The University originally concluddd the Subject's copying from the source
proposal was knowing, and revised it downward to reckless. The Subject admitted
copying from the source proposal and knew he was copying when he did so.
Therefore, we conclude the subject acted intentionally (purposefully) when he copied
from the source proposal.
                               SIGNIFICANT  DEPARTURE
     Acts of plagiarism, including intellectual theft, like those committed by the
Subject represent significant departures from accepted practices of the research
community. Acts of plagiarism resulting from the violation of the confidentiality of
NSF's merit review system are particularly egregious because researchers expect to
be able to confidentially include unpublished ideas in their NSF proposals.


     Given the Subject's admission of the act, our conclusion he acted with a
purposeful level of intent, and our conclusion his actions were a significant
departure from expected practices, we conclude the Subject committed plagiarism
and hence, research misconduct.
                      OIG's Recommended Disposition
    I n deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious




    17 We are pleased to note however, that the University regards the practice of including student
writings in proposals and publications without acknowledgment to be plagiarism. Tab (D), p. 3.


                                                                                               Pg. 5
the misconduct was; degree of intent; whether it was a n isolated event or part of a
pattern; its impact on the research record; and other relevant circumstances.l~
                                         Seriousness
     The Subject proposal contained approximately 136 lines of copied text in 6
sections throughout the proposal. This is a significant amount of copied text.
Increasing the seriousness of the Subject's plagiarism is the fact t h a t the Subject
copied the bulk of the text (97 lines) from a confidential proposal he received from
NSF with a request for review, and the copied text included not just background
material, but also original ideas.
                                       Degree of'lntent
     The Subject admitted to copying text from a n internet source and from a
confidential proposal he was asked to review for NSF. We conclude this was
knowing. He admitted he saved the source proposal he received for merit review,
contrary to what he knew he should have done, and he t h e n sought out the text
from the source proposal to copy into his proposal because of time constraints.
Thus, he acted with knowledge of his conduct in order to achieve a particular
objective, which means he acted purposefully, the highest degree of knowing
conduct.
                                           Pattern
     Since the University failed to look for evidence of a pattern, we examined five
additional proposals the subject submitted to NSF.19 Apart from additional copying
of the type found in the equipment proposal, we found no evidence of a pattern of
copying.
                                Impact on the Research Record
      The plagiarism occurred within a proposal t h a t was recommended for funding.
However, thanks to the swift relaying of the allegation to our office by the Program
Manager, we were able to interview the Subject before a funding decision was
finalized. During our interview, the Subject offered to withdraw the proposal, and
informed u s he had followed through on his offer. Accordingly, there was no harm
to the research record.
                              Aggravating and Mitigating Factors
Aggravating: The Subject violated NSF's review process; he took ideas a s well a s
             text from a confidential proposal.
Mitigating:  The Subject cooperated fully with our investigation. He voluntarily
             identified the text he copied from the source proposal. The Subject
             withdrew his proposal when the plagiarism was discovered. He has



   18   45 C.F.R. §689.3@).
   l9




                                                                                 Pg. 6
                 conducted significant outreach a t his university to raise awareness of
                 the responsible conduct of research.
                                         Subject's Rebuttal   '

     The Subject submitted a rebuttal with several appendices.20, He accepted
responsibility for the verbatim copying in his proposal. He disagrees with his
university and with us that he committed intellectual theft. He said his main idea ,
was embodied by Fig. 3 in his proposal and there was no plagiarism associated with
text describing the research related to the figure. He argues the second university
report is more thorough, and it concluded his actions were reckless, not knowing,
and we should give that report more weight. He described his exemplary reactions
to the allegations, including him (and his graduate students) taking a Responsible
Conduct of Research (RCR) course;21 creating and teaching a Ph.D. traineeship
course that incorporates RCR, ethics, and lessons learned;22 and raising awareness
in his department about RCR.23
                                           OIG 's response
     The Subject's arguments about not committing intellectual theft are not
convincing. The Subject did not explain how he could copy text from a confidential
proposal without also copying the ideas those words represent. The subject did not
provide examples of the copied ideas appearing in the literature a s evidence they
are merely background or common knowledge. Accordingly, we do not alter our
conclusion that the Subject committed plagiarism, including verbatim copying and
intellectual theft, when he copied approximately 97 lines of text from a confidential
proposal he was asked to review for NSF.
      We are impressed with the Subject's proactive efforts to raise awareness i n his
research group, his department, and his university regarding the responsible
conduct of research and the lessons he learned. We note these actions were
initiated by the Subject prior to receiving our draft ROI, and we have modified our
report because of them. We included the Subject's efforts under Mitigating Factors,
and we decreased our recommended debarment period from 2 years to 1year.


                                        Recommendations
        We recommend NSF:
            Send the Subject a letter of reprimand informing him NSF is making a
            finding of research misconduct;24
            Debar the Subject for 1year;25

   20 The subject's response, with ,appendices, is Tab (F).
   21 Tab (F), Appendix E.
   22 Tab (F), Appendix D.
   23 Tab (F), Appendix C.
                                                                                  ,   .
   24 This is a Group I Action, 45 CFR $689.3(a)(l).




                                                                                      Pg. 7
        a   Prohibit the Subject from serving a s reviewer for NSF for 5 years from the
            time of the finding;26 and
            Require the Subject to provide for 3 years after his debarment a
            certification to OIG that everything he submits to NSF is his original
            work or properly cited.27.28
     The University informed us in its revised report it has already required the
Subject and his graduate students to take a research ethics course and a separate
course on plagiarism.29 The Subject provided copies of his and his students'
completion in his response.30




   25 This is a Group I11 Action, $689.3(a)(3)(iii).
   26 This is a Group I11 Action, $689.3(a)(3)(ii).
   27 This is similar to a Group I Action, §689.3(a)(l)(iii).
   28 The ~ e r t ~ c a t i o
                            should
                              n    be sent to the Associate Inspector General for Investigations.
   29Tab (D), p. 3.
   30 Tab (F),Appendix E.




                                                                                                    Pg. 8
